WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5429

 

 

   

eff Jensen, et al

(Petitioner) v. (Respondent)

 

IDO NOT INTEND TO FILEA RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© am filing this waiver on behalf of all respondents.

O° J only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 First Strect, NE, ashington, D.C, 20543).
Signature: + ball os Z

Date: 9/14/21

(Type or print) Name David P. Ayraud, Attorney Reg. No. 28530

© mw. O Ms. O Mrs. O Miss
Firm Larimer County Attorney's Office
Address 224 Canyon Ave., Suite 200
City & State Fort Collins, Colorado Zip 80521
Phone 970-498-7450 Email dayraud@larimer.org

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Pedro Reyes
ce:
